CERTIFICATE OF SERVICE
No. TBD
Kebreab Zere
Petitioners)
v.
District of Columbia (D.C.)
Respondents)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Kebreab Zere Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Karl A. Racine
Attorney General for the District of Columbia
441- 4th Street, N.W.
Washington, DC 20001
(202) 727-3400
Counselfor District of Columbia (D. C.)

Lucas ©eDeus

January 22, 2020
SCP Tracking: Zere-626 Blandford Street-Cover White

